USCA11 Case: 21-11053 Date Filed: 08/26/2021 Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 21-11053-C

HAKIM MUHAMMAD,
Petitioner-Appellant,
versus
MARTY ALLEN, et al.,
Respondents,
CEDRIC TAYLOR,
Respondent-Appellee.

Appeal from the United States District Court
for the Northern District of Georgia

ORDER:
Hakim Muhammad moves for a certificate of appealability ("COA") and leave to proceed
on appeal in forma pauperis in order to appeal the district court's denial of his Rule 60(b) motions
as both meritless and impermissibly second or successive. To the extent that the district court
denied Muhammad's Rule 60(b) motions in part on the merits, Muhammad's motion for a COA
is DENIED IN PART because he has failed to make a substantial showing of the denial of a
constitutional right. See 28 U.S.C. ยง 2253(c)(2).
To the extent that the district court denied Muhammad's Rule 60(b) motions in part as an
impermissibly second or successive 28 U.S.C. ยง 2254 habeas corpus petition, Muhammad's
motion for a COA is DENIED AS UNNECESSARY IN PART. See Hubbard v. Campbell, 379

USCA11 Case: 21-11053 Date Filed: 08/26/2021 Page: 2 of 2

F.3d 1245 (11th Cir. 2004). Nevertheless, Muhammad's motion for leave to proceed in forma
pauperis is DENIED because his appeal of that portion of the district court's ruling is frivolous.
See Pace v. Evans, 709 F.2d 1428 (11th Cir. 1983).

/s/ Robert J. Luck
UNITED STATES CIRCUIT JUDGE

2

